No. 19-797
IN THE SUPREME COURT OF THE UNITED STATES
CITY OF ST. LOUIS, MISSOURI, AND DOC’S TOWING, INC.,
PETITIONERS,
V.

MARY MEIER,
RESPONDENT.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Respondent’s Brief in
Opposition in the above-captioned case contains 3,420 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 20, 2019.
s/ Michael T. Kirkpatrick
Michael T. Kirkpatrick
Public Citizen Litigation Group
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
mkirkpatrick@citizen.org
Counsel for Respondent

